               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




      Efficiency of the Atlanta Network
             Distribution Center –
       Processing and Transportation

                       Audit Report




                                              August 16, 2013

Report Number NO-AR-13-005
                                                                       August 16, 2013

                                                   Efficiency of the Atlanta Network
                                                               Distribution Center –
                                                     Processing and Transportation

                                                       Report Number NO-AR-13-005



BACKGROUND:
In 2009, the U.S. Postal Service began      was underutilized. Finally, we observed
re-aligning its former bulk mail centers    some mail transport equipment was not
into network distribution centers (NDCs),   properly restrained by straps for
saving over $111 million in                 transportation to and from the NDCs.
transportation and processing costs.
There are 21 NDCs nationwide, mainly        Officials were not always following NDC
responsible for sorting and transporting    guidelines for properly sorting, labeling,
Standard, Periodicals, and Package          and consolidating mail. In addition,
services. Our objective was to evaluate     officials did not fully analyze existing
the efficiency of the Atlanta NDC mail      transportation among NDCs and feeder
processing and transportation               facilities. We estimate the Postal
operations.                                 Service could save about $2.8 million
                                            annually in transportation costs by
WHAT THE OIG FOUND:                         complying with NDC guidelines and
Atlanta NDC operations and associated       combining or eliminating some trips.
transportation to and from the Memphis
NDC could be more efficient. The            WHAT THE OIG RECOMMENDED:
Atlanta NDC did not attain the average      We recommended the vice president,
productivity of those NDCs above            Capital Metro Area, improve the
median productivity. Consequently, the      efficiency of the Atlanta NDC’s
Atlanta NDC used about 130,300 more         processing operations by attaining the
workhours than necessary. If the Postal     average productivity of all above-median
Service eliminated these workhours,         NDCs. We also recommended the vice
there would be an annual labor cost         presidents, Southern, Capital Metro, and
avoidance of about $5.2 million.            Eastern areas, remove unnecessary
                                            highway contract route transportation
We also found that some mail was being      associated with the Atlanta and
unnecessarily transported from the          Memphis NDCs, reinforce field
Atlanta NDC and that space in mail          compliance with NDC guidelines, and
transport equipment, such as over-the-      realign and reinforce existing safety
road containers, were underutilized. In     procedures for restraint of mail transport
addition, overall transportation between    equipment in trailers.
the Atlanta and Memphis NDCs, and
transportation from some feeder             Link to review the entire report
processing plants to the Memphis NDC
August 16, 2013

MEMORANDUM FOR:            DAVID C. FIELDS
                           VICE PRESIDENT, CAPITAL METRO AREA

                           JO ANN FEINDT,
                           VICE PRESIDENT, SOUTHERN AREA

                           JOSHUA D. COLIN
                           VICE PRESIDENT, EASTERN AREA




FROM:                      Robert J. Batta
                           Deputy Assistant Inspector General
                            for Mission Operations


SUBJECT:                   Audit Report – Efficiency of the Atlanta Network Distribution
                           Center – Processing and Transportation
                           (Report Number NO-AR-13-005)

This report presents the results of our audit of the U.S. Postal Service’s network
distribution centers (NDCs), specifically the Atlanta, GA, Tier 1 NDC and its associated
Tier 2 NDC in Memphis, TN, as well as feeder plants (Project Number 12XG024NL000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Jody Troxclair, deputy director,
Networking Processing and Transportation, or me at 703-248-2100.

Attachment

cc: David E. Williams, Jr.
    Mary T. Taylor
    Linda M. Malone
    John A. Darden
    Corporate Audit and Response Management
Efficiency of the Atlanta Network                                                                                  NO-AR-13-005
 Distribution Center –
 Processing and Transportation

                                               TABLE OF CONTENTS


Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Inefficient Sorting Operations .......................................................................................... 3

Unnecessary and Underutilized Highway Contract Route Transportation ....................... 4

Other Matters — Safety and Security Concerns ............................................................. 8

Recommendations ........................................................................................................ 10

Management’s Comments ............................................................................................ 10

Evaluation of Management’s Comments ....................................................................... 11

Appendix A: Additional Information ............................................................................... 13

   Background ............................................................................................................... 13

   Objective, Scope, and Methodology .......................................................................... 14

   Prior Audit Coverage ................................................................................................. 16

Appendix B: Monetary Impacts ..................................................................................... 18

Appendix C: Operational Analysis ................................................................................. 19

Appendix D: Detailed Transportation Analyses ............................................................. 22

Appendix E: Management's Comments ........................................................................ 25
Efficiency of the Atlanta Network                                                                       NO-AR-13-005
 Distribution Center –
 Processing and Transportation

Introduction

This report presents the results of our audit of operations and transportation of the
U.S. Postal Service’s Atlanta, GA, network distribution center (NDC), its associated
NDC in Memphis, TN, and associated feeder plants (Project Number 12XG024NL000).
Our objective was to evaluate the efficiency of Atlanta NDC mail processing and
transportation operations. This self-initiated audit addresses operational risk. See
Appendix A for additional information about this audit.

In 2009, the Postal Service reorganized its 21 bulk mail centers (BMCs)1 into NDCs.
NDCs are part of a national system of automated mail processing facilities linked by a
dedicated transportation network. NDCs were designed to consolidate mail processing
and dispatch to increase operational efficiency, reduce workhours and transportation
costs. The Postal Service saved over $111 million in transportation and processing
costs based on the re-alignment. NDCs are categorized as Tiers 1, 2, or 3, depending
on what operations their employees perform. All 21 NDCs perform at least the Tier 1
functions. Tiers 2 and 3 NDCs act as transfer and consolidation points for other NDCs
as well.

As part of the NDC implementation process, manual sorting operations were instituted
in and adjacent to dock operations at processing and distribution centers (P&DCs), and
processing and distribution facilities (P&DFs). The manual operations are for separating
and consolidating mail for transport to the Tier 2 NDCs. In addition, an extra layer of
transportation was created from Tier 1 service areas to the Tier 2 NDCs to
accommodate transportation of manually sorted Tier 1 mail. The extra layer of
transportation added from the Atlanta NDC service area to the Memphis NDC for
originating mail was planned to be efficient in only one direction - inbound to Memphis.

Conclusion

We determined that Atlanta NDC operations and associated transportation to and from
the Memphis NDC and their feeder processing plants could be more efficient. While the
Atlanta NDC has been taking steps to manage workhours, process more mailpieces,
and reduce some workhours over the past several years, further opportunities exist for
improvement. We found that in 2012 the Atlanta NDC did not attain the average
productivity of all NDCs above the median productivity. Consequently, the Atlanta NDC




1
  This dedicated network was developed to reduce delays and damage when handling bulk mail within a system
designed primarily for letter mail and has to compete with First-Class Mail and other classes of mail for processing
time and transportation space. The term ‘bulk mail’ includes Package Services, Periodicals, and Standard Mail
classes with service standards from 1 to 10 days. Some NDCs have incorporated Surface Transfer Center (STC)
operations that handle significant volumes of First-Class and Priority mail.
                                                           1
Efficiency of the Atlanta Network                                                                      NO-AR-13-005
 Distribution Center –
 Processing and Transportation

used 130,391 more workhours than necessary to process its mail volume, thus missing
an annual cost avoidance of about $5.2 million2 based on mail volume. See Appendix B
for monetary impacts.

These conditions occurred because Atlanta NDC management did not fully evaluate
operational efficiency by benchmarking operations against other NDCs. To increase
productivity to the average productivity of all above-median NDCs, Atlanta NDC
management needs to:

   Reduce workhours by 130,391, which would produce a cost avoidance of about
    $5.2 million annually or, as an alternative:

    o Increase mail volume by 20 million pieces.
    o Combine workhour reductions and mail volumes increases.

We also found that some mail was being unnecessarily transported from the Atlanta
NDC to the Memphis NDC. This local mail should have remained in Atlanta. Further, we
found that mail handling units from feeder locations were not being consolidated into
fewer mail transport equipment (MTE) rolling stock3 containers at plant docks, resulting
in excess MTE and trailer space being used.4

We also found that overall transportation between the Atlanta and Memphis NDCs and
transportation from some feeder processing plants to the Memphis NDC was
underutilized. This occurred because officials were not always following NDC
guidelines5 for properly sorting, labeling, and consolidating mail prior to transporting it to
the Memphis NDC. In addition, Postal Service management did not fully analyze
existing transportation among the NDCs and feeder processing plants during NDC
realignment and added an unnecessary layer of transportation in some cases. We
estimate the Postal Service could save about $2.8 million in transportation costs
annually by complying with NDC guidelines and combining or eliminating unnecessary
or underutilized transportation.

Finally, we observed that some MTE rolling stock and pallets were not properly
restrained for transportation to and from the NDCs.




2
  The U.S. Postal Service Office of Inspector General (OIG) acknowledges that every NDC has different processing
equipment that can impact productivity; however, based on the analysis of Management Operating Data System and
Breakthrough Productivity Initiative data, the Atlanta NDC has the capability to eliminate 130,391 workhours in
Function 1.
3
  Various container types used to transport individual mail handling units (sacks, tubs, trays, packages).
4
  We observed that sometimes more MTE containers than necessary were used because consolidations were not
being performed. Consequently, with more containers, more trailer floor space than necessary was used to transport
this mail.
5
  In 2009 (as part of the NDC activation process), the Postal Service’s acting manager, NDC Operations, issued
Network Distribution Center Activation guidelines for the proper sortation, labeling, and consolidation of NDC mail to
be transported for processing.

                                                          2
Efficiency of the Atlanta Network                                                                    NO-AR-13-005
 Distribution Center –
 Processing and Transportation



Inefficient Sorting Operations

While the Atlanta NDC has recently taken steps to manage workhours, process more
mailpieces, and reduce some workhours over the past several years, further
opportunities exist for efficiency improvement. We found that in fiscal year (FY) 2012
the Atlanta NDC did not attain the average productivity of all NDCs above the median
productivity. Comparing the Atlanta NDC to other NDCs provides a benchmark for
operational efficiency. The Atlanta NDC's total pieces handled (TPH) and non-additional
(NA) pieces handled6 productivity ranks 17 out of the 21 NDCs as shown in Figure 1.
Atlanta had a piece per hour (PPH) productivity of 89, while the nationwide
above-median PPH was 119.

             Figure 1. NDC Nationwide TPH and NA Productivity for FY 2012




                                      FY12 above Median PPH was 119
                                                                                        89
                                                                                       PPH




Source: Enterprise Data Warehouse (EDW).



We also found that overall productivity for the Atlanta NDC progressively decreased
(with the exception of a slight increase in 2012) while national averages increased
overall from FYs 2009 to 2012 (as show in Table 1).



6
 The TPH count in non-distribution operations is recorded as TPH, but not added to the bottom line for mail
processing distribution, thus the name ‘non-additional total pieces handled.’



                                                         3
Efficiency of the Atlanta Network                                                           NO-AR-13-005
 Distribution Center –
 Processing and Transportation




                           Table 1. Productivity Comparison (TPH and NA)

                                                    Above - Median
                                                        NDCs                  Atlanta NDC
           FY 2009                                     103 PPH                  138 PPH
           FY 2010                                     103 PPH                  97 PPH
           FY 2011                                     117 PPH                  88 PPH
           FY 2012                                     119 PPH                  89 PPH
           Percentage Increase
                                                       15.19 %7                 -35.22 %8
           FYs 2009 - 2012
           Source: EDW.

Variations in the operations performed at the different NDCs required a review of the
specific labor distribution codes (LDCs). Thus, we reviewed the corresponding LDC
codes in Table 2.

                                          Table 2. The LDCs Reviewed

                                LDC Code                           Description
                                         13               Mechanized Distribution
                                         14               Manual Distribution
                                         17               Allied Operations
                Source: EDW.

These conditions occurred because Atlanta NDC management did not fully evaluate
operational efficiency by benchmarking operations against other NDCs. Overall, to
increase productivity to meet the average productivity of all above-median NDCs,
Atlanta NDC management needs to reduce workhours by 130,391, or continue to
increase mail volume by 20 million pieces, or a combination of both, which would
produce a cost avoidance of about $5.2 million annually. See Appendix C for more
information.

Unnecessary and Underutilized Highway Contract Route Transportation

We determined that some mail was unnecessarily being transported from the Atlanta
NDC to the Memphis NDC. In addition, we found some highway contract route (HCR)
transportation associated with the Atlanta and Memphis NDCs, as well as feeder
processing plants, were underutilized and could be combined or eliminated.

7
    Slight difference due to rounding.
8
    Slight difference due to rounding.

                                                      4
Efficiency of the Atlanta Network                                                                     NO-AR-13-005
 Distribution Center –
 Processing and Transportation



Unnecessary Transportation of Local Mail. From our observations and inspection of
rolling stock containers, as well as discussions with officials at the Atlanta and Memphis
NDCs, we determined that about 4 percent of local Atlanta mail was not remaining at
the Atlanta NDC for processing. Instead, the mail was being unnecessarily transported
to the Memphis NDC for processing and then returned to the Atlanta NDC for re-
processing and distribution. This occurred because local Atlanta associated offices and
stations were sending mail containers to the Atlanta P&DC with local (Tier 1) and
network (Tier 2) mail comingled.9 We determined the local plants and stations were not
making the required separations and were using incorrect placarding.10 In addition, we
found that machinable parcels11 were commingled in containers with NMO parcels,
making it more difficult for the P&DCs to easily consolidate containers.12 The plant
supervisors stated that there was not enough time for the mail handlers on the docks to
do the separations and correct the errors from stations and post offices.

In addition, we observed that some MTE rolling stock containers at the Atlanta NDC for
transportation to the Memphis NDC were not loaded to capacity. For example, we
observed that 45 percent of the containers (about 440) dispatched to and from the
Atlanta NDC on February 21, 2013, and February 28, 2013, were less than half full. This
occurred because area plant officials were not consolidating the rolling stock containers
as required by NDC guidelines.13 Supervisors at the plants stated this was occurring
because they did not have enough mail handlers on the docks to consolidate the
containers. As a result, more rolling stock containers than necessary were being used
and transported and they were using more trailer space than necessary. These
conditions resulted in unnecessary transportation of mail from the Atlanta NDC to the
Memphis NDC and required additional handling and workhours.14

Underutilized HCR Transportation. During our review, we also found that some HCR
trips were underutilized between the Atlanta and Memphis NDCs and their feeder
locations during the implementation of the NDC tier concept. Based on our analyses of
the existing HCR transportation, we concluded that a “triangular approach” to this
transportation scenario could improve utilization by reducing the number of required

9
  Specifically, we found Retail Distribution Code (RDC) 01 (RDC 01 – Local NDC machinable Packages – Tier 1
Package Services) and RDC 02 (RDC Code 02 – Network NDC Machinable Packages – Tier 2 Packages Services)
mail comingled within individual mail containers with RDC 02 placards. Additionally, we found RDC 11 (Local NDC
non-machinable outside (NMOs)) and RDC 12 (Network NDC NMOs) mail comingled in containers with RDC 12
placards. RDC 01 and RDC 11 mail is supposed to be transported to the local NDC.
10
   Placarding involves the use of unique barcodes (on a single page) placed on MTE to identify the origin, destination
and mail class.
11
   An NMO is defined by the Domestic Mail Manual as a parcel larger than 27" x 17" x 17" and heavier than
35 pounds, irregular shaped parcels, or outside parcels.
12
   If mail was coming into the P&DC correctly separated, then the plants could easily combine containers and thus
use less transportation to move the mail.
13
   In the Network Distribution Center Activation guideline titled ‘Tier 1 NDC Communications’ dated June 15, 2009,
less than full MTE rolling stock “must be consolidated before loading to maximize container and transportation
utilization.”
14
   We did not assess the monetary impact of rehandling mail due to time constraints and our limited observations. We
did confirm through observations and discussions with Postal Service officials that the mail was being unnecessarily
handled (processed more than once).

                                                          5
Efficiency of the Atlanta Network                                                                  NO-AR-13-005
 Distribution Center –
 Processing and Transportation

trips between the feeder sites of the Atlanta and Memphis NDCs. In addition, we
determined that mail on certain other lanes could be combined into fewer trips and
some trips could be eliminated (see Appendix D for our detailed analysis of trips).

For instance, Figure 2 shows trips between the Birmingham Metropolitan area, the
Memphis NDC, and the Atlanta NDC, and lists the number of trips and their utilization
averages based on our analyses. A number of the trips have low utilization percentages
(see yellow highlights). We believe the low volume of mail on the trips is primarily the
result of implementing the NDC tiered concept and resulted in low volumes available for
return trips.

           Figure 2. Daily Trips Between Birmingham, Memphis, and Atlanta



                     13 Trips w/total utilization of 817% (for about 63% full trailers))
                                                                                                   Atlanta
    Memphis
                                                                                                   NDC /
     NDC             15 trips w/total utilization of 1184% (for about 79% full trailers)
                                                                                                    P&DC




                      Three trips w/total utilization of 250% (for about 83% full
     Birming-                                   trailers)                                          Memphis
       ham              Three trips w/total utilization of 85% (for about 23% full                  NDC
    P&DC and                                       trailers)
      Annex




                   Eight trips w/total utilization of 600% (for about 75% full trailers)           Birming-
    Atlanta                                                                                          ham
     NDC             11 trips w/total utilization of 400% (for about 36% full trailers)             P&DC
                                                                                                     and
                                                                                                    Annex


Source: OIG analysis of current HCR transportation associated with the Atlanta and Memphis NDCs.

As a result of our analysis and observations, we propose a triangular approach as
follows and shown in Figure 3. Specifically, we propose that management:

   Eliminate two round trips from the Atlanta Metro Area to the Memphis NDC.




                                                       6
Efficiency of the Atlanta Network                                                               NO-AR-13-005
 Distribution Center –
 Processing and Transportation

   Eliminate three return trips from the Memphis NDC to the Birmingham area and,
    instead, reroute those trips from the Memphis NDC to the Atlanta NDC, then to the
    Birmingham area.

   Eliminate four round trips from the Atlanta NDC to the Birmingham area and place
    the mail for the Birmingham area on the triangle route (Birmingham - Memphis NDC
    - Atlanta NDC).

                          Figure 3. Proposed Daily Trips
         Birmingham Area – Memphis NDC – Atlanta NDC Triangle Approach




                                                      Memphis NDC




                                        Proposed elimination 4 existing trips from
                                                Birmingham to Atlanta.
         Birmingham P&DC                                                                      Atlanta
             and Annex                                                                       Metro Area
                                                 Proposed elimination of 4
                                        existing/undertilized trips from Atlanta to
                                        Birmingham, along with the rerouting of 3
                                               trips initiated in Birmingham.




                Source: OIG analysis of current HCR trips associated with the Atlanta and Memphis NDCs.




                                                      7
Efficiency of the Atlanta Network                                                                             NO-AR-13-005
 Distribution Center –
 Processing and Transportation



In addition, we propose management eliminate one round trip from the Atlanta NDC to
the Montgomery and place the mail on a triangle route (we do not show this routing in
Figure 3 to simplify the illustration).

Finally, we propose reductions in other underutilized transportation lanes as follows:

    Eliminate one round trip between Atlanta and Huntsville.
    Eliminate one round trip between Atlanta and Mobile.
    Eliminate one round trip between Atlanta and Macon.
    Eliminate one round trip between Atlanta and Chattanooga.

We determined that the Postal Service could eliminate about 1.9 million miles and save
about $2.8 million annually in HCR costs. We also determined the Postal Service could
change these trips without negatively affecting on-time service performance.

Other Matters — Safety and Security Concerns

During our review of the loading and unloading of containers at the Atlanta and
Memphis NDCs, we consistently observed a deficiency in the number of restraining
straps used. In all of the trailer loadings/unloadings we observed, only two straps at the
back end of the trailers were used to secure MTE rolling stock, thus increasing the risk
of the load shifting during transportation and potentially causing a hazard.15 Postal
Service policy requires the use of two straps for every 10 feet.16 Failure to secure mail
containers in a moving vehicle could place Postal Service employees and contractors at
risk, cause workplace injuries, and damage the mail. Furthermore, unsecured mail
containers in moving trailers could endanger the general public if contents are spilled
onto roadways (see Figure 4).




15
   Improperly restrained trailer loads of mail have resulted in unnecessary movement of containers within trailers,
damaging containers and mail.
16
   Logistics Order LO200407, dated April 16, 2004, prescribes policies for safe loading and proper restraint during
transportation of mail to facilities. In particular, the order states, “All vehicles transporting containers and pallets must
have the load secured with two restraining devices about every 10 feet.”

                                                              8
Efficiency of the Atlanta Network                                                      NO-AR-13-005
 Distribution Center –
 Processing and Transportation



                 Figure 4. Inadequate Number of Load Restraining Straps




                            A trailer with only two straps at the end of the load
                            and no other straps restraining the rolling stock at the
                            Atlanta NDC.
                            Source: OIG photograph taken March 5, 2013.

We also determined that MTE rolling stock pins were not being secured in the stake
pockets available on the trailer bed floors, as shown in Figure 5. This increased the risk
of the load not being properly restrained. Securing MTE rolling stock heavy with mail
(such as over-the-road, or OTR, containers) in the stake pockets complies with safety
procedures.

 Figure 5. Large OTR Containers not Secured in Trailers at the North Metro P&DC




                                Trailer departing North Metro P&DC with
                                 OTR tow pins not in the stake pockets.
                             Source: OIG photographs taken August 9, 2012.




                                                         9
Efficiency of the Atlanta Network                                                            NO-AR-13-005
 Distribution Center –
 Processing and Transportation

Recommendations

We recommend the vice president, Capital Metro Area:

1. Improve the efficiency of the Atlanta Network Distribution Center’s mail processing
   operations by attaining the above-average median productivity level of 119 pieces
   per workhour by fiscal year 2016.

We also recommend the vice presidents, Southern, Capital Metro, and Eastern areas:

2. Realign, remove, and modify Highway Contract Route transportation associated with
   the Atlanta and Memphis network distribution centers, as identified in Appendix D.

3. Reinforce field compliance with network distribution center guidelines for properly
   sorting, labeling, and consolidating mail prior to transport.

4. Reinforce existing safety procedures requiring restraint of mail transport equipment
   rolling stock containers in trailers.

Management’s Comments

Overall, management generally agreed to our findings and recommendations, except as
noted below, related to productivity and transportation, and fully agreed with our finding
and recommendation regarding safety and security concerns.

Management partially agreed with our findings related to mail processing productivity
and the potential sources of workhour reductions we identified. Specifically, Capital
Metro Area agreed with LDC 17 being a potential source of workhour reductions, but did
not agree with our assessments of LDCs 13 and 14, because they were not based on
Breakthrough Productivity Index (BPI).17 Additionally, management stated that BPI
scores were better able to rank NDCs productivities in relation to the varied processing,
machinery, and operations; and the Atlanta NDC was performing well, given its limited
processing machinery. Consequently, the Capital Metro Area only agreed to take
actions to achieve about $3.6 million of the $10.4 million that could be achieved by full
implementation of recommendation 1 by FY 2016.

Management generally agreed with our unnecessary and underutilized HCR
transportation findings and targets implementation of all agreed upon transportation
changes by October 2013. Management also provided written agreement for about
$4.3 million of the $5.5 million that could be achieved by implementation of
recommendation 2. The Southern Area disagreed with our recommended trip reductions



17
  Our productivity analyses were based on data from Management Operating Data System (MODS), the EDW, and
the Web End-of-Run System.

                                                    10
Efficiency of the Atlanta Network                                                               NO-AR-13-005
 Distribution Center –
 Processing and Transportation

associated with the triangular approach. Management stated that HCRs 350L5, 30195
and 30197 are required for mail class and volume purposes. 18

Management fully agreed with our safety and security findings and recommendations 3
and 4. In August 2013, the Capital Metro Area intends to reinforce the applicable safety
policies and require supervisors to periodically evaluate compliance. The Eastern and
Southern areas agreed to have full implementation of these recommendations by
September 2013. See Appendix E for management’s comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
corrective actions should resolve the issues identified in the report, with exceptions
related to recommendations 1 and 2.

Regarding recommendation 1, we still believe our findings and related monetary impact
are valid based on our assessment of productivity. The results of both the Postal
Service’s BPI analysis and our productivity analysis show similar opportunities for
overall significant efficiency improvements and workhour savings. In fact, the BPI for
FY 2012 indicated that the Atlanta NDC has 264,997 opportunity workhours available
for improvement19 versus the 130,391 we determined. Further, our productivity analysis
showed the Atlanta NDC was 17 out of the 21 NDCs in TPH and NA productivity for
FY 2012, and the BPI showed the Atlanta NDC was 16 of the 21 for the same function.

Capital Metro Area management also stipulated in their comments that the Atlanta NDC
is not equipped with automated mail processing machinery that other NDCs have, and
this negatively affects mechanized processing productivity. If management pursued the
installation of this type of machinery in FY 2014, there would still be enough time to
capture the workhour savings by the expected implementation date of
recommendation 1.

We will work with Capital Metro Area management in closing out this significant
recommendation and resolving the differences in monetary impact. We will also request
the Capital Metro Area reconsider its partial disagreement with our finding that the
Atlanta NDC used 130,391 more workhours than necessary based on our productivity
analysis of LDC codes and its plans for more efficient equipment installation at the
Atlanta NDC.

Regarding recommendation 2 and Southern Area management’s disagreement with the
triangular approach for three HCRs, we still believe our findings are valid based on our

18
   Southern Area management stated the trips “on HCR 350L5 are used to dispatch First-Class Mail between the
Memphis STC and Birmingham, AL, and the trips on 30195 are required because the volume dispatch is higher from
the Atlanta NDC to Montgomery, AL.
19
   The BPI also provides the potential sources of the 264,997 opportunity hours. For example, Mechanized Other
Direct (LDC 13) had 50,456 opportunity hours reported and Other Manual Total (LDC 14) had 31,962 opportunity
hours reported.

                                                      11
Efficiency of the Atlanta Network                                          NO-AR-13-005
 Distribution Center –
 Processing and Transportation

analysis of the trips. We determined that other transportation currently exists with
sufficient space to accommodate the mail classes and volumes in question. HCR 350L5
has two STC return trips from the Memphis STC that can return STC volume to
Birmingham and Montgomery facilities. Our review of the FY 2012 utilization for these
two trips shows sufficient available space to move this mail.

We will work with Southern Area management in closing out this significant
recommendation and resolving the differences in monetary impact. We will also request
the Southern Area management reassess their disagreement of these trips since our
trip and volume analysis shows that other transportation currently does exist with
sufficient available space to accommodate the mail volumes in question.

The OIG considers all the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                          12
Efficiency of the Atlanta Network                                            NO-AR-13-005
 Distribution Center –
 Processing and Transportation


                               Appendix A: Additional Information

Background

The Postal Service’s NDCs are part of a national system consisting of 21 automated
mail processing facilities linked by a dedicated transportation network. The system
incorporates processing facilities and a transportation network dedicated to sorting and
transporting bulk mail; Package Services, Standard Mail, and Periodicals. Network
Operations is responsible for domestic mail processing and transportation networks.

After several years of declining mail volume, a changed mail mix, and mailers entering
more mail near final destinations, much of the mail former BMCs processed has also
declined significantly. Facing significant cost reduction targets and recognizing the
opportunity to make better use of space in trailers being sent on long distance
transportation routes, as well as opportunities to improve mail dispatching and
processing operations, the Postal Service began developing an internal re-engineering
effort to transform BMCs into NDCs.

In an effort to reduce costs and excess capacities, management reorganized the
21 facilities into NDCs with a three-tiered structure. NDCs would consolidate the
processing and dispatching of mail to achieve economies of scale and greater
operational efficiency to reduce workhours and transportation costs. The Postal Service
saved over $111 million in transportation and processing costs based on the
re-alignment. According to the NDC realignment plans, Tier 1 facilities send and receive
mail to or from their Tier 2 NDCs. In May 2009, the Postal Service activated Phase 1 of
the NDC concept. Implementation began in Atlanta in September 2009.

The Postal Service did the NDC implementation in phases, accelerating Phases II
through IV being accelerated into implementation before completing, sufficiently
analyzing, and properly evaluating Phase I. Manual sorting operations in and adjacent
to dock operations at P&DCs and P&DFs were instituted. The manual operations are
responsible for separating and consolidating mail for transport to Tier 2 NDCs.

In addition, management created an extra layer of transportation from Tier 1 service
areas to the Tier 2 NDCs to accommodate transportation of the manually sorted Tier 1
mail. The extra layer of transportation added from the Atlanta NDC service area to the
Memphis NDC for originating mail was planned to be efficient in only one direction –
inbound to Memphis. See the map with all 21 NDCs by tier in Figure 6.




                                               13
Efficiency of the Atlanta Network                                            NO-AR-13-005
 Distribution Center –
 Processing and Transportation



                        Figure 6. Location of NDCs Nationwide by Tier




Source: Postal Service Blue Pages – Network Operations.

Objective, Scope, and Methodology

The objective was to evaluate the efficiency of the Atlanta NDC mail processing and
transportation operations. This report focuses on NDC processing and transportation at
the Atlanta NDC, related processing and transportation at the Memphis NDC, and other
feeder plants.

We performed this audit by comparing NDC productivity and evaluating the realignment
of the transportation network. We identified the Atlanta NDC as having the potential for
significant savings through improved efficiency of productivity and transportation. To
maximize efficiency, the goal is to process and transport mail with the least amount of
resources and still meet service timeframes.

To assess efficiency, we observed mail processing operations and transportation
operations; analyzed mail volume and workhours; reviewed HCR transportation trailer
utilization, and analyzed machine utilization. We conducted site visits to evaluate
transportation utilization and processing at the Atlanta NDC, Atlanta P&DC, North Metro
P&DC (in GA), and the Memphis NDC. We identified trips for consolidation, removal
and rerouting. We interviewed Postal Service officials, and benchmarked achievement
to target productivities with similar-sized plants. We calculated the TPH and non-TPH
productivities for LDCs 13, 14, and 17 for FY 2012. We benchmarked the Atlanta NDC



                                                      14
Efficiency of the Atlanta Network                                           NO-AR-13-005
 Distribution Center –
 Processing and Transportation

against the NDCs that were above the median productivity. We calculated the difference
between the Atlanta workhours and the median NDC workhours per LDC and the
difference was the NDC workhour savings. The corresponding workhour costs were
calculated leading to the workhour costs savings.

We also reviewed relevant Postal Service policies and procedures, interviewed
managers and employees, observed and photographed operations, assessed mail
container contents, and evaluated mail placarding (container labels).

We relied on Postal Service computer-processed data, including the MODS, the EDW,
and the Web End-of-Run System to analyze mail volume and workhours. We also relied
on HCR information from the Transportation Contract Support System and trailer
utilization data from the Transportation Information Management and Evaluation
System. We determined that the data used were sufficiently reliable for the purposes of
this report.

We conducted this performance audit from April 2012 through August 2013 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on May 30, 2013, and included their
comments where appropriate.




                                          15
Efficiency of the Atlanta Network                                                     NO-AR-13-005
 Distribution Center –
 Processing and Transportation



Prior Audit Coverage

                                               Report           Final Report          Monetary
               Report Title                    Number               Date               Impact
Efficiency Review of the Los Angeles        NO-AR-12-007           8/3/2012           $14,001,557
Network Distribution Center
Report Results:
Management agreed with the recommendation to improve operational efficiency by reducing
workhours by 200,019 and disagreed with the associated workhour savings. They also agreed to
provide more training, including employee oversight training, and improve the maintenance
program and sorting operations.

Atlanta Network Distribution Center        NL-AR-12-007           7/24/2012           $694,105
— Postal Vehicle Service Operations
Report Results:
Management generally agreed with the recommendations to ensure that the Atlanta NDC
managers follow prescribed standard operating procedures for movement of trailers in the yard
and periodically assess Postal Vehicle Service (PVS) spotter truck driver workload and staffing.
They also agreed to the recommendation to reduce the 1,746 annual workhours associated with
eliminating about 200 moves in the yard per week. Finally, they agreed to eliminate 6,984 annual
workhours associated with improving PVS productivity to about 40 trailer moves in the yard per
day.

POSTAL SERVICE INITIATIVE:                  NL-AR-12-006              5/29/2012         $15,365,532
Consolidation of Mail for
Transportation Between Network
Distribution Centers
Report Results:
Management generally agreed with our recommendations, but not our monetary impact, stating
that they expanded the number of consolidation lanes in February 2012, would continue to
pursue additional opportunities and a 2.5:1 utilization ratio, as well as evaluate the consolidation
of mail bound for Puerto Rico. Management also stated they would conduct locally managed
quarterly meetings with suppliers.




                                                16
Efficiency of the Atlanta Network                                                  NO-AR-13-005
 Distribution Center –
 Processing and Transportation



                                            Report            Final Report          Monetary
              Report Title                  Number                Date               Impact
Network Distribution Center Activation     EN-AR-11-002            3/14/2011        $ 171,539,629
Impacts
Report Results:
We made recommendations to ensure that trailer capacity is being optimized to eliminate excess
capacity in the transportation network and to review trips in the NDC network for additional
consolidation opportunities. Management agreed with the recommendations and continued to
address the challenge of under-utilized transportation capacity.




                                              17
Efficiency of the Atlanta Network                                                           NO-AR-13-005
 Distribution Center –
 Processing and Transportation

                                     Appendix B: Monetary Impacts


                                                                          Annual         Total
        Recommendations    Impact Category                                Amount        Amount
               1        Funds Put to Better                              $5,227,851    $10,455,702
                        Use20
               2        Funds Put to Better Use                            2,772,003     5,544,006
             Total                                                                     $15,999,708

We estimate that the Postal Service could save about $16 million in funds put to better
use in the next 2 years by implementing recommendations 1 and 2. For more
information regarding these saving see the Detailed Transportation Analyses and
Observations — Triangular Approach in Appendix D.

Recommendation 1 – We concluded that management could reduce workhours at the
Atlanta NDC by achieving and maintaining an average productivity of all NDCs that are
above-median productivity.

      We based the cost savings calculation on a reduction of 130,391 workhours phased
       in over a 6-month period multiplied by the escalated labor rate discounted over a
       2-year period.

      We calculated the net present value using the discount rate of 2.3 percent over a 2-
       year period.

      We based labor rates on the Atlanta NDC Labor Utilization Reporting System for
       total Function 1.

      The yearly escalation factor is 1.7 percent, based on the Postal Service’s Decision
       Analysis Factors effective November 2012.

The estimated annual savings for the first year would be about $5,227,851 (discounted
for net present value). In summary, the total savings would be $10,455,702 over the
next 2 years.

Recommendation 2 – This figure is the net result of reducing $5,544,006 in HCR
transportation. We also found that overall transportation between the Atlanta and
Memphis NDCs and transportation from some feeder processing plants to the Memphis
NDC was underutilized. The Postal Service could save about $2.8 million in
transportation costs annually by complying with NDC guidelines and combining or
eliminating some trips (see Appendix C for further details).



20
     Funds that could be used more efficiently by implementing recommended actions.

                                                         18
Efficiency of the Atlanta Network                                                                    NO-AR-13-005
 Distribution Center –
 Processing and Transportation




                             Appendix C: Operational Analysis
                      Comparison to Other Network Distribution Centers

Comparing the Atlanta NDC to other NDCs provides a benchmark for operational
efficiency. The Atlanta NDC’s TPH and NA productivity ranks 17 of 21 NDCs as shown
in Figure 1. Productivity for the Atlanta NDC decreased while national averages
increased from FYs 2009 to 2012 (see Table 1). Variations in operations performed at
the different NDCs require a review of the specific LDCs. 21 Raising the Atlanta NDC’s
productivity for these comparable operations to the above-median level would require a
reduction of 130,391 workhours at existing first-handled pieces (FHP) levels.

Potential Sources of Workhour Reductions

We identified specific mail processing functions for which the Atlanta NDC could
improve efficiency. Table 3 shows a complete breakdown of potential workhour savings
by LDC. We calculated the potential workhour savings by raising Atlanta NDC
productivity to the average productivity of all above-median NDCs. We calculated LDC
13 productivity as PPH, since mail volume is directly involved, calculated LDC 14
productivity as FHP, and calculated LDC 17 productivity as a percentage of total
workhours, as they are ancillary functions.

                       Table 3. Summary of Potential Workhour Savings

               LDC 22                                            Potential Workhour Savings
 LDC 13 – Mechanized Distribution                                                                         48,623
 LDC 14 – Manual Distribution                                                                             37,027
 LDC 17 – Allied Operations                                                                               44,741
 Total                                                                                                   130,391
Source: EDW.

LDC 13 – Mechanized Distribution

The Atlanta NDC can improve the efficiency of its LDC 13 – mechanized distribution
operation. Above-median NDCs processed, on average, 288 PPH during FY 2012,
while the Atlanta NDC processed 233 PPH. Increasing the Atlanta NDC to the average
of the above-median NDCs could save 48,623 workhours annually (see Table 4).



21
   The Postal Service compiles workhour, labor use, and other financial reports for management’s use by functional
category or LDC.
22
   The Postal Service uses LDC 13 to record mechanized distribution operations and LDC 14 to record manual
sortation of letters and flats. LDC 17 records hours in allied operations or mail processing operations other than
distribution including mail preparation, presort operations, opening, pouching, and platform operations.

                                                        19
Efficiency of the Atlanta Network                                                                   NO-AR-13-005
 Distribution Center –
 Processing and Transportation



          Table 4. LDC 13 – Mechanized Distribution Potential Workhour Savings

                                                              Above-Median
                                                                 Plants                   Atlanta NDC
      LDC 13 Volume                                               747,665,999                 59,198,618
      LDC 13 Workhours                                                 2,598,637                    254,378
      LDC 13 Productivity                                               288 PPH                    233 PPH
                                               23
      Atlanta NDC Target Workhours*                                                                 205,755
      Potential Workhour Savings                                                                    (48,623)
     *The number of workhours necessary to raise Atlanta NDC productivity to the average of above-median NDCs.
     Source: EDW.

LDC 14 – Manual Distribution

The Atlanta NDC has the opportunity to save workhours through improved efficiency of
its LDC 14 – manual distribution operation. Above-median NDCs process, on average,
167 pieces per hour, while the Atlanta NDC processes 39 PPH. Increasing the Atlanta
NDC to the average of the above-median NDCs could save 37,027 workhours annually
(see Table 5).

             Table 5. LDC 14 – Manual Distribution Potential Workhour Savings

                                                              Above-Median
                                                                 NDCs                      Atlanta NDC
      LDC 14 Volume                                            40,855,287                   1,853,797
      LDC 14 Workhours                                           244,504                       48,121
      LDC 14 Productivity                                        167PPH                        39PPH
      Atlanta NDC Target Workhours*                                            11,094
      Potential Workhour Savings                                              (37,027)
     *The number of workhours necessary to raise Atlanta NDC productivity to the average of the above-median NDCs.
     Source: EDW.

LDC 17 – Allied Operations

Allied operations provide another opportunity for the Atlanta NDC to reduce workhours.
LDC 17 (or allied operations) include mail preparation — presort operations, opening,
pouching, and platform operations. During FY 2012, the Atlanta NDC used over
50 percent of its processing workhours in LDC 17, while above-median NDCs, on
average, used just over 44 percent of their workhours in allied labor. Reducing LDC 17


23
  We calculated Atlanta’s target workhours by multiplying Atlanta’s mail volume by median NDC productivity. The
workhour savings is the difference between the target workhours and the Atlanta NDC workhours.

                                                         20
Efficiency of the Atlanta Network                                                                NO-AR-13-005
 Distribution Center –
 Processing and Transportation

workhours by 44,741 would enable the Atlanta NDC to raise productivity to the average
of the above-median NDCs (see Table 6).

            Table 6. LDC 17 – Allied Operations Potential Workhour Savings

                                                           Above Median
                                                               NDCs                     Atlanta NDC
   LDC 17 Workhours                                          9,210,015                    776,367
   Total Workhours                                           4,117,494                     391,829
   LDC 17 Percentage to Total
                                                               44.71%                       50.47%
   Workhours
   Atlanta NDC Target Workhours*                                            347,088
   Potential Workhour Savings                                               (44,741)
  *The number of workhours necessary to raise Atlanta NDC productivity to the average of above-median NDCs.
  (The Atlanta Workhours should be the same percentage as that of those of the above-median NDCs which, in this
  case is 44.71 percent.)
  Source: EDW.

During our observations we noted idle employees, indicating productivity issues (see
Figure 7 as an example).

                     Figure 7. Four Idle Employees at the Inbound Dock




                    Source: OIG photograph taken February 12, 2013.




                                                      21
Efficiency of the Atlanta Network                                                                            NO-AR-13-005
 Distribution Center –
 Processing and Transportation


                            Appendix D: Detailed Transportation Analyses
                              and Observations — Triangular Approach

Based on our analyses of existing HCR transportation, we concluded that a triangular
approach to this transportation could improve utilization by reducing the number of
required trips (return trips) between and among the feeder sites of the Atlanta and
Memphis NDCs. Table 7 summarizes the affected HCRs and the related transportation
cost impacts. Note that there are nine HCRs for which we recommend reductions to the
costs and mileage, and one for which we recommend a modest increase. The net
savings identified is about $2.8 million annually.

      Table 7: HCR Transportation Savings Based on the Triangular Approach

WORKSHEET   HCR     SEG PRE MILEAGE POST MILEAGE MILEAGE CHANGE PRE ANNUAL RATE POST ANNUAL RATE ANNUAL RATE CHANGE
HCR 1       350l5   a                                    34,676.7 $                                         $54,188.57
HCR 2       381y3   a                                  (396,560.4) $                                      ($589,403.03)
HCR 3       30095   a                                  (414,924.0) $                                      ($711,299.06)
HCR 4       30292   a                                  (121,228.0) $                                      ($156,851.98)
HCR 5       30197   a                                  (240,334.5) $                                      ($330,848.59)
HCR 6       30096   a                                   (73,949.1) $                                      ($122,691.79)
HCR 7       30194   a                                   (68,667.0) $                                       ($98,420.21)
HCR 8       381a0   a                                  (437,549.4) $                                      ($571,580.28)
HCR 9       350l5   a                                   (42,126.7) $                                       ($65,830.60)
HCR 10      30195   a                                  (112,497.0) $                                      ($179,266.28)
HCR 11      0         0                                       0.0 $          -
HCR 12      0         0                                       0.0 $          -
HCR 13      0         0                                       0.0 $          -
HCR 14      0         0                                       0.0 $          -
HCR 15      0         0                                       0.0 $          -
       TOTAL             23,865,681.6   21,992,522.2   (1,873,159.4) $   41,598,450.04 $   38,826,446.78 $     (2,772,003.26)
Source: EDW.

Unnecessary and Underutilized Transportation

We observed some mail containers arriving at the Atlanta and Memphis NDCs from
local plants and stations with local (Tier 1) and network (Tier 2) mail comingled.24 In
addition, we found that some machinable parcels25 were commingled in containers with
NMO parcels. We observed that the Atlanta local processing plants, retail units, and
stations were not properly separating local and network mail, and the local plants were
not separating the mail on the docks as required prior to sending it to the NDCs.


24
   Specifically, we found: RDC 01 (RDC Code 01 – Local NDC machinable Packages – Tier 1 Package Services)
and RDC 02 (RDC Code 02 – Network NDC machinable Packages – Tier 2 Packages Services) mail comingled
within individual mail containers with RDC 02 placards. Additionally, we found RDC 11 (Local NDC NMOs) and
RDC 12 (Network NDC NMOs) mail comingled in containers with RDC 12 placards. RDC 01 and RDC 11 mail is
supposed to be transported to the local NDC.
25
   An NMO is defined by the Domestic Mail Manual as “a parcel larger than 27" x 17" x 17" and heavier than
35 pounds, an irregularly shaped parcel, or an outside parcel.”

                                                             22
Efficiency of the Atlanta Network                                                                        NO-AR-13-005
 Distribution Center –
 Processing and Transportation



Figures 8 and 9 show, respectively, a mail container from a retail unit with its placard
containing the wrong mail and a mail container label prepared incorrectly.

           Figure 8. Containers Improperly Labeled with a Retail Unit Placard




      Retail Placards (labeled RDC 02 machinable                Retail Placards (labeled RDC 02 (machinable
      parcels). MTE Labeling (MTEL) placards (which             parcels). MTEL Placards (which have a scannable
      have a scannable barcode) should have been                barcode) should have been used.
      used.                                                     Source: OIG photograph taken March 15, 2013, at
      Source: OIG photograph taken March 20, 2013, at           the Memphis NDC.
      the Atlanta P&DC.

            Figure 9. Improper Container Labels for Mail to the Memphis NDC




The mailpiece (to the right of the retail placard label) that originated in Forest Park, GA, bound for Warner Robbins,
GA, should have remained in Atlanta for processing by the Atlanta NDC.
Source: OIG photographs taken March 14, 2013, at the Memphis NDC.



We observed that Postal Service staff was not consolidating mail from stations and
post offices in the Atlanta NDC area into MTE containers at the plant docks prior
to sending them to the Atlanta and Memphis NDCs. Many of the containers were only
20 to 30 percent full and could have easily been combined on the docks of the plants. In



                                                           23
Efficiency of the Atlanta Network                                                                   NO-AR-13-005
 Distribution Center –
 Processing and Transportation

addition, we observed very low volumes of mail in trailers that should be combined,
resulting in fewer HCR trips needed to transport the mail (see Figure 10).


                  Figure 10. Trailer and MTE Underutilization at the Plants




An MTE container that is underutilized (less   An underutilized trailer, with fewer   An underutilized trailer, at about
than 10 percent capacity).                     than 30 percent capacity (two          50 percent capacity
Source: OIG photograph taken March 20,         straps were used.)                     (two straps were used).
2013, at the Atlanta NDC.                      Source: OIG photograph taken           Source: OIG photograph taken
                                               February 13, 2013, at the Atlanta      February 13, 2013, at the Atlanta
                                               NDC.                                   NDC.




                                                       24
Efficiency of the Atlanta Network                               NO-AR-13-005
 Distribution Center –
 Processing and Transportation



                            Appendix E: Management's Comments




                                           25
Efficiency of the Atlanta Network        NO-AR-13-005
 Distribution Center –
 Processing and Transportation




                                    26
Efficiency of the Atlanta Network        NO-AR-13-005
 Distribution Center –
 Processing and Transportation




                                    27
Efficiency of the Atlanta Network        NO-AR-13-005
 Distribution Center –
 Processing and Transportation




                                    28
Efficiency of the Atlanta Network        NO-AR-13-005
 Distribution Center –
 Processing and Transportation




                                    29
Efficiency of the Atlanta Network        NO-AR-13-005
 Distribution Center –
 Processing and Transportation




                                    30
Efficiency of the Atlanta Network        NO-AR-13-005
 Distribution Center –
 Processing and Transportation




                                    31
Efficiency of the Atlanta Network        NO-AR-13-005
 Distribution Center –
 Processing and Transportation




                                    32
Efficiency of the Atlanta Network        NO-AR-13-005
 Distribution Center –
 Processing and Transportation




                                    33
Efficiency of the Atlanta Network        NO-AR-13-005
 Distribution Center –
 Processing and Transportation




                                    34
Efficiency of the Atlanta Network        NO-AR-13-005
 Distribution Center –
 Processing and Transportation




                                    35
